No. ____________

IN THE

KELLEY KELLER, Petitioner,
v.
CHRISTIAN PFEIFFER, Respondent.

CERTIFICATE OF SERVICE

I, Andrea Yamsuan, a Deputy Federal Public Defender in the Office of the
Federal Public Defender that was appointed as counsel for Petitioner in the District
Court for the Central District of California under the Criminal Justice Act, 18
U.S.C. § 3006(A)(b), do swear or declare that on this date, May 5, 2021, as required
by Supreme Court Rule 29, I have served the enclosed Motion for Leave to Proceed
In Forma Pauperis; Petition for Writ of Certiorari; and Appendix on each party to
the above proceeding required to be served, or that party’s counsel, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid.

The names and addresses of those served are as follows:
Ana R. Duarte
Deputy Attorney General
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
I declare under penalty of perjury under the laws of the United States that
the foregoing is true and correct.
Executed in Los Angeles, California, on May 5, 2021.

/s/ Andrea A. Yamsuan

Andrea A. Yamsuan*

*Counsel of Record

